                                      TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



September 28, 2012

Robert M. Balzar, OCP 2K-NST

REQUEST FOR FINAL ACTION – AUDIT 2011-14244 – AUDIT OF TVA'S DIRECT LOAD
CONTROL PROGRAM



Attached is the subject final report for your review and final action. Your written
comments, which addressed your management decision and actions planned or taken,
have been included in the report. Please notify us within one year from the date of this
memorandum when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions, please contact Michael A. Driver, Audit Manager, at
(423) 785-4813 or Rick C. Underwood, Director, Corporate Governance and Finance
Audits, at (423) 785-4824. We appreciate the courtesy and cooperation received from your
staff during the audit.




David P. Wheeler
Deputy Assistant Inspector General
 (Audits)
ET 3C-K

MAD:DBS
Attachment
cc (Attachment):
      Micheal B. Fussell, WT 7C-K
      Peyton T. Hairston, Jr., WT 7B-K
      Joseph J. Hoagland, WT 7C-K
      William G. Jackson, Jr., OCP 2G-NST
      Tom Kilgore, WT 7B-K
      Richard W. Moore, ET 4C-K
      Anna E. Morgan, MR 3M-C
      Emily J. Reynolds, OCP 1L-NST
      Robert B. Wells, WT 9B-K
      OIG File No. 2011-14244
      WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
       distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
               is not to be further distributed without prior approval of the Inspector General or his designee.

                                      TVA RESTRICTED INFORMATION
 


        
                               TVA RESTRICTED INFORMATION


                                                                                 Audit Report
 
Office
      of the Inspector General                                                                                                

                                                                                        To the Vice President,
                                                                                        Energy Efficiency and  
                                                                                        Demand Response 
                                                                                                                              

 

 

 

 

AUDIT OF TVA’S DIRECT
 


LOAD CONTROL
 

 

PROGRAM 
 



 




 

 
 
 

 

Auditor                                                                                                      Audit 2011-14244
Michael A. Driver                                                                                          September 28, 2012

             WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
             distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
                     is not to be further distributed without prior approval of the Inspector General or his designee. 


                             TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

FINDINGS ......................................................................................................... 3
    THE DLC PROGRAM IS NOT OPERATING EFFECTIVELY ......................... 3

    TVA IS NOT EMPLOYING TWO KEY OVERSIGHT MECHANISMS
    AFFORDED BY THE DLC CONTRACT.......................................................... 5

RECOMMENDATIONS .................................................................................. 5


APPENDICES
A. OBJECTIVES, SCOPE, AND METHODOLOGY

B. MEMORANDUM DATED SEPTEMBER 25, 2012, FROM WILLIAM G.
   JACKSON, JR., TO DAVID P. WHEELER




Audit 2011-14244

                                      TVA RESTRICTED INFORMATION
                      Auditt 2011-14224 – Rev
                                            view of T
                                                    TVA’s Dirrect Load
                                      Contro
                                           ol Program
                                                    m
                                            EXECUTIV
                                                   VE SUMM
                                                         MARY

     Why the
           e OIG Did This
                     T    Audit

         The Tennessee
               T             Valley Authhority (TVA A) establishe ed the Dire
                                                                            ect Load Co ontrol
         (DLC) program in   i the 1970s as a mea     ans to shift load from o
                                                                            on-peak/hig gh-
         priced d periods to
                           o off-peak/loow-priced p  periods. Th his was to b
                                                                            be done thrrough
         the innstallation of
                           o radio-con ntrolled swittches to cycclei air cond
                                                                            ditioners annd
         waterr heaters fo or either reliability or ecconomic pu urposes. Participating
         distrib
               butors instaall the switc
                                       ches (which  h are provided by TVA) on end ussers’
         equip pment, and the distribu utors receivve monthly ccredits on ttheir wholessale
         bills for
               f each sw  witch. Prese ently, there are 12 disttributors pa articipating iin the
         DLC program. Credits
                           C        provvided to the ese distribu
                                                                utors duringg 2011 rang ged
         from $5,909 to over
                           o     $1 million for a tottal cost to T
                                                                 TVA of $2,3365,819.

         The OIG
              O (Office of the Insp pector Gene  eral) audite
                                                            ed TVA’s DLLC program m to
         addre
             ess concern ns receivedd regarding the benefitts of the pro
                                                                       ogram. Our
         specific audit ob
                         bjectives we
                                    ere to assesss the effecctiveness off (1) the
         progrram and (2)) TVA’s oveersight of th
                                                he program..

     What the
            e OIG Foun
                     nd

         We determined the DLC prrogram is no
                                            ot operating
                                                       g effectivelyy, and TVA
                                                                             A is
         not em
              mploying tw
                        wo key oversight mech
                                            hanisms affforded by thhe DLC
         contra
              act.

             Thhe programm is not operating effecctively beca ause (1) muuch of the DDLC
              prrogram equ uipment is outdated
                                        o        annd in disrepair, and (2)) the progra
                                                                                      am
              coost is substa
                            antially high
                                        her than thee savings TTVA achievves. The
              coomputer sys stem used to regulate the progra   am is over 2
                                                                          20 years oldd,
              annd there aree limited ressources avvailable to p
                                                               provide upkeep and
              maintenance  e on its softwware and hhardware. IIn addition, the equipm ment
              (trransmitters and repeaters) requirred to opera  ate the systtem are aboout
              300 years old and prone to operatio  onal problem ms. TVA personnel
              esstimated thee program had a net ccost of abou  ut $2.2 milliion to TVA in
              fis
                scal year 20007.
             TVVA is not ussing two ke
                                      ey contractu ual oversigh
                                                              ht mechanissms for verrifying
              (1) the prograam is operaating as inte
                                                   ended and (2) distribuutor reports to
              TVVA are accu urate. The first oversiight mechanism gives TVA the rig   ght to
              peerform an annual
                           a       auditt to determine the opeerational co
                                                                         ondition of
              installed swittches. Accoording to prrogram managers, the  e only revieew of
              the installed switches peerformed u nder this mmechanism occurred in   n

i
    Cycling is the
                 e orderly turnin
                                ng “off” and “on” of switches th
                                                               hrough the use
                                                                            e of the DLC prrogram.
                                                                                                     P
                                                                                                     Page i

                                     TVA RES
                                           STRICTED INF
                                                      FORMATION
            Auditt 2011-14224 – Rev
                                  view of T
                                          TVA’s Dirrect Load
                            Contro
                                 ol Program
                                          m
                              EXECUTIV
                                     VE SUMM
                                           MARY

      20
       006. The second overrsight mech    hanism requ  uires distrib
                                                                   butors to suupply
      TVVA with an annual listing of particcipant inform
                                                       mation. No  o distributorr has
      prrovided participant info
                               ormation sinnce the currrent Progra am Manage   er
      took over the
                  e position inn 2010.

      By
       y not using the contracctual oversight mecha  anisms, TVA  A cannot
      de
       etermine if (1)
                   ( the swittches for cyycling powe er off at pea
                                                                 ak demand
      pe
       eriods are actually
                  a        worrking and (2
                                         2) it is actua
                                                      ally getting the intende
                                                                             ed
      be
       enefit from the credits paid.

What the
       e OIG Reco
                ommends

      ecommend TVA’s Vice
  We re                 e Presidentt, Energy E
                                             Efficiency an
                                                         nd Demand
                                                                 d
  Response:

     Peerform a co
                  ost-benefit analysis
                              a        to determine whether the   e benefits T
                                                                             TVA
      de
       erives from the DLC program are   e greater tha
                                                     an the annu  ual cost of tthe
      prrogram (inc
                  cluding the credits
                              c       bein
                                         ng provided d to distributors and the
      co
       ost of the eq
                   quipment needed to effectively co  ontinue thee program).
     Pe
       eriodically audit
                    a     each distributor
                                d          p
                                           participating
                                                       g in the DLC program to
      de
       etermine the effectiven ness of the installed swwitches andd modify
      distributor cre
                    edit calcula
                               ations accorrdingly.
     Diiscontinue application
                    a            of the who
                                          olesale cred dit to the exxtent require
                                                                                ed
      infformation is
                    s not reportted by partiicipating disstributors.

TVA Man
      nagement’’s Commen
                       nts

  TVA manageme
       m         ent agreed with
                              w our find  dings and sstated steps are currently
  underrway to corrrect the deficiencies a
                                         and create a cost-effecctive
  replac
       cement proogram in co onjunction wwith the Sm
                                                   mart Grid Pilot project. See
  Appendix B for TVA
                  T     manag gement’s coomplete ressponse.




                                                                               P
                                                                               Page ii

                        TVA RES
                              STRICTED INF
                                         FORMATION
Office
O      of the Insp
                 pector Generall                                                                     Audit R
                                                                                                           Report


BACKGR
B    ROUND
Energy
E        efficiency and demand-sid
                         d            de managem    ment progrrams have b  been a partt of
th
 he Tenness  see Valley Authority
                         A           (T
                                      TVA) energyy supply re  esource mixx since the late
1970s. The programs were w      initiated in respo onse to the rising cost of energy a
                                                                                     and
construction n of new ele
                        ectric generrating units.. These pro    ograms proomoted eneergy
conservation  n and the efficient
                        e         use e of electriciity. The Dirrect Load C
                                                                          Control (DLCC)
program, wh  hich was alsso establish  hed by TVA  A in the 197
                                                              70s, was offffered to
distributors as
              a a means s to shift loaad from on--peak/high--priced periods to off-
peak/low-priiced periods.

 n order to im
In            mplement the DLC pro     ogram, radio-controlled   d switches are installeed to
cy ycle1 air co
              onditioners and
                           a water heaters
                                       h        for either reliaability or eco
                                                                             onomic
purposes. DLC D     contraccts between TVA and distributorss require TV       VA to provide
sw witches for storage wa  ater heaterss at no costt to the disttributor. We were info  ormed
by the current Program   m Manager thatt    TVA w would also p  provide swittches for reegular
water
w       heaterrs. The disttributor is th
                                       hen responssible for insstalling the switch on tthe
end-use cus   stomers’ equipment. The  T switche   es are used  d to cycle thhe equipme ent off
th
 hrough use of a radio-controlled signal
                                       s      origin
                                                   nated by TV   VA. The signal is initiaated
by the Balan  ncing Autho ority desk of TVA and repeated th     hrough the use of radio  o
trransmitter towers throu  ughout the Tennessee    e Valley to d distributorss and customers
who
w participate in the program.
                          p           However,
                                      H          sin
                                                   nce this typ pe of comm  munication iss one
way,
w      there iss currently no commun   nication abiility in the D
                                                                DLC program that allow   ws
TVA
T      to knoww whether oro not a switch is workking. The fo    ollowing is a pictorial
reepresentation of the stteps taken when DLC is initiated..




                  The                 The siggnal            Radio toweers             Thee signal is 
              Baalancing            goes to TVA's                 and                  recceived by 
            Authority of             microwwave                repeaterss             the switch to 
            TVAA initiates            tower and               throughouut              turrn off the 
            the signal to            out to rradio             the Valleyy              ap
                                                                                         ppliance.
              goo to the               toweers.                 send the 
             cusstomers.                                     signal to thhe 
                                                               customer.r.




1
    Cycling is the
                 e orderly turnin
                                ng “off” and “on” of switches th
                                                               hrough the use
                                                                            e of the DLC prrogram.
Audit
A     2011-1424
              44                                                                                          P
                                                                                                          Page 1

                                     TVA RES
                                           STRICTED INF
                                                      FORMATION
Office of the Inspector General                                                        Audit Report


The DLC contracts between TVA and its distributors allow switches to be
activated up to 96 times a year or 16 times a month. The contracts also establish
the length of time the switch can be activated as well as the recovery time
between activation. TVA estimates it can obtain a system-wide load reduction of
30 megawatts (MW) during cycling. Participating distributors receive a credit on
their monthly bill for each installed switch. The credit amount for the switch is
dependent upon the type of equipment it is installed on as shown below.

                            Storage Water Heater                    $5.50
                            Standard Water Heater                   $4.75
                            Air-Conditioner Unit                    $1.15

The DLC contracts stipulate that a standard water heater is 30 gallons while a
storage water heater is 40 gallons, or if installed after September 30, 1997,
50 gallons. While the contract allows a credit for air-conditioner units, TVA
management stated cycling of air-conditioner units has been discontinued due to
negligible benefits, programming complexity, and a high potential for adverse
public impact.

Participating distributors provide the necessary information for TVA to credit the
wholesale power bill. (Note: Because this is a credit on the wholesale power bill
and not an actual payment to the distributor, it is not reflected on TVA
departmental budgets.) Presently, there are 12 distributors participating in the
DLC program. As summarized in Table 1 below, credits provided to these
distributors during 2011 ranged from $5,909 to over $1 million for a total cost to
TVA of $2,365,819.

                                         Summary of DLC Credits
                                         Provided by TVA in 2011
                                                                                 2011
                Distributor
                                                                            Billing Credit
          1.    Bristol Tennessee Essential Services                            $1,010,811
          2.    Powell Valley Electric Cooperative                                 419,349
          3.    Middle Tennessee Electric Membership Corporation                  312,075
          4.    Central Electric Power Association                                149,661
          5.    Electric Power Board of Chattanooga                               138,295
          6.    Huntsville Utilities                                              128,821
          7.    Gibson Electric Membership Corporation                             63,529
          8.    North Georgia Electric Membership Corporation                      48,399
          9.    Nashville Electric Service                                         46,811
         10.    Lexington Electric System                                          24,849
         11.    Southwest Tennessee Electric Membership Corporation                17,310
         12.    Jackson Energy Authority                                            5,909
                  Total                                                        $2,365,819
                                                                                    Table 1


Audit 2011-14244                                                                              Page 2

                                       TVA RESTRICTED INFORMATION
Office of the Inspector General                                          Audit Report


The DLC contracts that are currently in place are dated October 1, 1997, and
require TVA to provide 10 years’ prior written notice to terminate the agreement.
However, the distributor can terminate the agreement at any time upon 30 days’
prior written notice to TVA.

TVA’s Integrated Resource Plan, which was accepted by the TVA Board of
Directors on April 14, 2011, stated that from 1996 to 2008, TVA programs offered
in conjunction with distributors of TVA power resulted in a cumulative demand
reduction of more than 545 MW. It further stated nearly 90 percent of this total
was derived from TVA’s EnergyRight® residential program. The remainder of the
reduction was attributed to residential DLC programs for air-conditioning and
water heating and large commercial and industrial programs, or approximately
54.5 MW over nearly 12 years.

We scheduled an audit of the DLC program because of concerns we received
regarding the benefits TVA receives from the program in comparison to the
annual costs associated with the program. A complete discussion of our audit
objectives, scope, and methodology are included in Appendix A to this report.

FINDINGS
Our audit of TVA’s DLC program determined:

   The program is not operating effectively because (1) the DLC program
    equipment is outdated and in disrepair, and (2) the program cost is
    substantially higher than the savings TVA achieves. TVA personnel
    estimated the program had a net cost of about $2.2 million to TVA in fiscal
    year 2007.
   TVA is not employing two key oversight mechanisms afforded by the DLC
    contract. Specifically, TVA has not (1) performed a quality assurance audit
    since 2006 to determine the operational condition of installed switches for
    those distributors participating in the program nor (2) required the annual
    reporting by distributors of customers with switches. This results in TVA
    providing credits for switches without knowing whether or not they are
    operating or where they are installed.

The following provides a detailed discussion of each of our findings.

THE DLC PROGRAM IS NOT OPERATING EFFECTIVELY
Our audit found the DLC program is not operating effectively because (1) the
DLC program equipment is outdated and in disrepair, and (2) the program cost is
substantially higher than the savings TVA achieves.




Audit 2011-14244                                                              Page 3

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                       Audit Report


Program Equipment is Unreliable or Inoperable
The DLC program is only as effective as the equipment used to operate the
program. Based on interviews we conducted with various former and current
TVA employees associated with the program, we determined the program is not
effective because of unreliable and inoperable equipment. Specifically, we were
informed:

    The computer hardware and related software for the DLC program is over
     20 years old, and it is very difficult to find anyone to maintain or modify the
     system.
    The transmitters and repeaters used by TVA to send cycling signals to
     distributors (and to the ultimate customer) are about 30 years old. According
     to TVA officials, some of this equipment has not worked for over 2 years, and
     currently, the only functioning transmitter is providing a signal to just one
     distributor – Bristol Tennessee. Accordingly, the signal is not being
     transmitted to eleven distributors who received billing credits of about
     $1.3 million in calendar year 2011. We were informed it is hard to find repair
     and replacement parts due to the age of the transmitter equipment. In a 2007
     presentation to TVA management, it was estimated a major capital upgrade of
     approximately $600,000 was needed to make the system operational.
     However, TVA officials informed us the upgrades have not been made.

Program Cost Exceed Potential Benefits
In addition to the operational inefficiency of the program’s equipment, an earlier
study performed by TVA personnel found the DLC program was not cost
beneficial. The study, which reviewed the programs costs during 2007, found the
costs of the program were substantially higher (over eight times higher) than the
avoided costs the program provided. Specifically, TVA’s study found the net cost
to TVA for providing the program during 2007 was $2.2 million as follows:

    Total costs incurred by TVA during 2007 were $2.5 million including
     (1) $2.2 million in billing credits provided to the twelve participating
     distributors, (2) $200,000 in program costs, and (3) $87,000 for switches that
     were provided to the distributors.
    Although TVA’s study indicated there was no mechanism for determining
     actual load reductions during cycling, TVA estimated the cycling would have
     only achieved savings of about $290,000.2

In summary, the cost of the DLC program is continuing to grow although the
benefits derived from the program are limited. As shown in Table 1 (on page 2),
the billing credits provided by TVA were $2.36 million in 2011, which is $166,000
more than TVA reported it had incurred during 2007. Based on the increased

2
    TVA’s study also reported although air-conditioning units are not being cycled, TVA is still providing
    billing credits of about $108,000 each year for air conditioners. Our review of billing credits during 2011
    indicated this level of credits is still being provided, although TVA informed us it is not sending a signal to
    the air conditioner switches.
Audit 2011-14244                                                                                           Page 4

                                      TVA RESTRICTED INFORMATION
Office of the Inspector General                                              Audit Report


level of credits TVA is incurring and the costs necessary to operate the
equipment effectively, it does not appear the program can provide a positive
return for TVA.

TVA IS NOT EMPLOYING TWO KEY OVERSIGHT MECHANISMS
AFFORDED BY THE DLC CONTRACT

The DLC contracts allow TVA to perform a quality assurance audit not more than
once every 12 months to determine the operational condition of the installed
switches used in calculating the credit applied to the distributor billing. According
to program managers, the only review of the installed switches performed under
this mechanism occurred in 2006 when results showed less than 50 percent of
the 86,000 installed switches were in service. Information supplied by TVA
regarding this review did not document sample sizes or tests performed and did
not state which distributors were reviewed nor the customers selected for testing.
Since the credit TVA provides distributors is directly derived from the number of
operating switches reported by the distributor, the audit clause of the contract is
the only tool TVA has to verify the number of switches used to calculate this
credit.

The second oversight mechanism requires distributors to provide TVA with an
annual listing of participant information in a specified computer format. If this
information is not received, TVA has the right to discontinue the application of the
billing credit. According to TVA personnel, no distributor has provided this
information since the current Program Manager took the position in 2010.
However, distributors have continued to receive the credits on their wholesale
power bill as TVA has not enforced these contract provisions.

RECOMMENDATIONS
We recommend TVA’s Vice President, Energy Efficiency and Demand
Response:

   Perform a cost-benefit analysis to determine whether the benefits TVA
    derives from the DLC program are greater than the annual cost of the
    program (including the credits being provided to distributors and the cost of
    the equipment needed to effectively continue the program).
   Periodically audit each distributor participating in the DLC program to
    determine the effectiveness of the installed switches and modify distributor
    credit calculations accordingly.
   Discontinue application of the wholesale credit to the extent required
    information is not reported by participating distributors.




Audit 2011-14244                                                                  Page 5

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                            Audit Report


TVA Management’s Comments – TVA management agreed with our findings
and stated steps are currently underway to correct the deficiencies and create a
cost-effective program in conjunction with the Smart Grid Pilot project.
Specifically, management stated it plans to:

1. Develop a replacement option strategy including meeting with the Cycle and
   Save participants and seek potential options.

2. Audit each distributor participating in the DLC program per the terms of the
   contract to determine the effectiveness of the installed switches and modify
   distributor credit calculation accordingly per the terms of the current contract.

TVA Management also stated Energy Efficiency & Demand Response, Customer
Relations, DSM Pricing, and the Senior Advisor to the CEO have formed a
Strategic Planning Team to address issues identified by the audit and present
options to participating distributors. TVA plans to complete the program change
by FY 2013.

See Appendix B for TVA management’s complete response.

Auditor’s Response – We agree with management’s planned actions to create
a cost-effective replacement program and to audit each distributor participating in
the program and modify distributor credits accordingly. We still recommend that
TVA discontinue application of the wholesale credit until required information has
been reported by participating distributors.




Audit 2011-14244                                                                Page 6

                                  TVA RESTRICTED INFORMATION
                                                                    APPENDIX A
                                                                     Page 1 of 1

OBJECTIVES, SCOPE, AND METHODOLOGY
The Office of the Inspector General audited the Tennessee Valley Authority’s
(TVA) Direct Load Control (DLC) program to address concerns we received
regarding the benefits of the program. Our specific audit objectives were to
assess the effectiveness of (1) the program and (2) TVA’s oversight of the
program. The objective was not to assess TVA’s system of internal controls
related to the DLC program. Therefore, controls associated with the DLC
program were not tested as part of this audit. To achieve our objectives, we:

   Interviewed TVA personnel to determine the criteria TVA uses to assess the
    effectiveness of the program.
   Reviewed monthly credits provided by TVA to determine if they followed
    criteria established through the contract with the distributor.
   Interviewed TVA personnel to determine if the DLC program is functioning as
    intended, switches are installed, and radio signals are transmitted and
    received.
   Reviewed the distributor contracts to obtain an understanding of TVA’s rights
    to oversight of the program.
   Determined whether the oversight mechanisms included in the contract are
    implemented to ensure the effectiveness of the program.
   Interviewed TVA personnel tasked with oversight of the program to determine
    whether activities have been performed to monitor the program.

When evaluating results of our audit work, we used both qualitative and
quantitative factors when considering the significance of an item. The dollar
expenditures from this program (approximately $2 million annually) would be the
basis for determining quantitative significance of an item or transaction and are
not significant to TVA as a whole. However, there are items that could be
qualitatively significant to the program and our audit objectives. We would
consider an item significant that would (1) prohibit the DLC program from being
able to achieve its objective of significantly reducing peak demand by shifting
energy use to off-peak hours or periods of low demand for electricity, (2) lower
the available megawatt reduction available through the program (reported as
69.6 megawatts for the cumulative participation in the program during 1995 and
1996), and (3) cause TVA reputational harm.

The scope of the audit was the DLC program for the period January 2010
through December 2011. Fieldwork was conducted between November 2011
and July 2012. This performance audit was conducted in accordance with
generally accepted government auditing standards. Those standards require we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

                           TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 1 of 1




TVA RESTRICTED INFORMATION
